No. 20-520

In the Supreme Court of the United States
AMERICAN ATHLETIC CONFERENCE, THE ATLANTIC
COAST CONFERENCE, THE BIG TEN CONFERENCE, INC.,
THE BIG 12 CONFERENCE, INC., CONFERENCE USA,
MID-AMERICAN CONFERENCE, MOUNTAIN WEST
CONFERENCE, PAC-12 CONFERENCE, SOUTHEASTERN
CONFERENCE, SUN BELT CONFERENCE, AND WESTERN
ATHLETIC CONFERENCE,
Petitioners,
v.
SHAWNE ALSTON, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
I, Andrew J. Pincus, counsel for Petitioner The Big Ten Conference, Inc.,
hereby certify that, according to the word-count tool in Microsoft Word, the Reply
Brief for Petitioners consists of 5998 words, including footnotes and excluding the
sections enumerated by Rule 33.1(d). The Petition therefore complies with Rule
33.1(g).

/s/ Andrew J. Pincus
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, N.W.
Washington, D.C. 20006-1101
(202) 263-3000
apincus@mayerbrown.com

